Agency Management of The Superfund Technical
Assistance Grant (TAG) Program
                                                    #6100160

                                          EXECUTIVE SUMMARY

PURPOSE

The Superfund Technical Assistance Grant (TAG) program makes available $50,000 grants to community
groups for obtaining technical assistance to monitor and interpret site specific information related to Superfund
cleanups. Based on an allegation concerning an embezzlement of TAG funds and a referral from the U.S.
General Accounting Office concerning a possible conflict of interest at another TAG grantee, we performed an
audit of EPA's controls over the TAG program The purpose of our audit was to:

   •   identify the Agency's measures for program success and their strategies for achieving it;
   •   test program implementation for compliance with program controls; and
   •   review a sample of claimed grant costs for allowability, reasonableness and allocability.

BACKGROUND

EPA is responsible for providing information to residents who live near Superfund sites and involving them in
cleanup decisions. Congress recognized the importance of public input by amending the Comprehensive
Environmental Response, Compensation, and Liability Act (CERCLA) of 1980 requiring that EPA conduct
specific community relations activities.

The TAG program was authorized in 1986 under the Superfund Amendments and Reauthorization Act (SARA)
to encourage community involvement in the Superfund decision making process. Grants of $50,000 are
available to local community groups. Only one grant is available for each of the approximately 1250 sites listed
(or proposed for listing) on EPA's National Priorities List. Between 1988 and 1994, EPA has awarded 151
technical assistance grants totaling about $8.2 million.

RESULTS OF REVIEW

We concluded that the TAG program is being implemented in general compliance with program and regulatory
requirements. Also, based on our limited testing, claimed grant costs were for the most part allowable. Our
findings are summarized below and discussed in the following report.

Measures of Program Success

EPA, like other governmental organizations, is faced with the requirement of carrying out its missions with
fewer resources. The difficulty comes with trying to allocate scarce resources against competing demands. One
management tool that can significantly aide in dealing with this issue is the clear and concise establishment of
program goals, objectives, performance measures and a strategy to accomplish the program. However, we found
that the Agency had not adequately defined program measures for success.

Limited TAG Activity
We also found that only a relatively small number of TAGs were awarded during the seven years of the
program. There have been 151 TAGs awarded since 1988 for the over 1,250 Superfund National Priority List
(NPL) sites. This suggests to us that the program is not having the maximum success in affording local
community groups access to technical advisors at Superfund sites. In assessing reasons for the limited TAG
activity, we concluded that:

   •   the TAG program needs are not defined;
   •   information about the TAG program is not getting to community groups; and
   •   the TAG program is being inconsistently implemented.

It appears that the Agency established the program in response to the Congressional mandate without assessing
the needs of the impacted communities. While the Agency recognized that not every Superfund site may
warrant a TAG grant, there is no evidence that the Agency has identified the number of communities interested
in obtaining a TAG grant. As a result, excess TAG funds have been budgeted. Only $8.2 million of the $33
million budgeted for TAG awards, since 1988, has been awarded and less than one-half ($3.6 million) was
reported by grantees as spent as of the end of fiscal 1994.

RECOMMENDATIONS

Detailed recommendations follow the findings in the body of this report. In summary, we are recommending
that the Assistant Administrator for Solid Waste and Emergency Response assess the effectiveness of the TAG
program as well as the need for continuing the program. If, in the opinion of the Agency, a continuing need
does not exist, the program could be proposed for elimination through the upcoming re-authorization of the
Superfund statute. If, the Agency determines that sufficient need exists to justify continuing the program, then
the Agency needs to estimate its resource's requirements and determine an efficient and effective
implementation strategy for the program.

AGENCY COMMENTS

A draft report was provided to the OSWER for comment on October 23, 1995. OSWER responded on
December 8, 1995. In general, OSWER agreed in principle with many of the audit recommendations and
provided detailed comments on activities in process which they believed were responsive to the
recommendations. OSWER's comments have been summarized in the report, with auditor comments as
necessary, and included in their entirety in APPENDIX 1.



   •   Report of Audit: Agency Management of The Superfund Technical Assistance Grant (TAG) Program
       (6100160)
